   Office of Inspector General
       Audit Report



QUALITY CONTROL REVIEW OF THE AUDIT
OF THE EFFECTIVENESS OF DOT’S EARNED
    VALUE MANAGEMENT PRACTICES
         Department of Transportation

          Report Number: QC-2014-065
           Date Issued: July 17, 2014
           U.S. Department of
                                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of the Audit                                         Date:    July 17, 2014
           of the Effectiveness of DOT’s Earned Value
           Management Practices
           Report Number: QC-2014-065

  From:    Louis King                                                                       Reply to
                                                                                            Attn. of:   JA-20
           Assistant Inspector General for Financial and
             Information Technology Audits

    To:    Chief Information Officer, DOT

           This report presents the results of our quality control review (QCR) of an audit of
           the Department of Transportation’s (DOT) earned value management (EVM)
           practices. EVM is a tool used to plan, execute, and control the costs and schedules
           of information technology (IT) projects. It provides insight on program
           performance by comparing the value of work accomplished to the planned value
           of scheduled work. The Office of Management and Budget requires agencies to
           use EVM to calculate cost and schedule variances from the approved baselines for
           major IT investments. 1 For fiscal year 2013, DOT requested $2.2 billion for
           44 major IT investments and approximately $15 million for IT security.

           KPMG LLP conducted this audit under contract to DOT’s Office of Inspector
           General (OIG). The audit objectives were to determine whether DOT: (1) has
           implemented effective EVM policies, procedures and practices; and (2) uses
           accurate EVM data to plan, monitor, and report the status of its IT investments and
           related security spending. KPMG found deficiencies in DOT’s EVM procedures
           and practices and issued 14 recommendations to help the Department establish and
           maintain an effective program (see Exhibit A for a list of these recommendations).
           DOT’s Chief Information Officer concurred with all recommendations. His
           response is included on page 26 of KPMG’s audit report, dated June 30, 2014,
           which can be found in its entirety in the attachment to this report. In accordance
           with DOT Order 8000.1C, the corrective actions taken in response to the findings
           are subject to follow-up.


           1
               Major IT investments require special management attention because of their size or importance to agencies’ missions..
                                                                                2


Our QCR, as differentiated from an audit engagement performed in accordance
with generally accepted Government auditing standards, was not intended for us to
express, and we do not express, an opinion on DOT’s EVM management
practices. KPMG is responsible for its independent auditor’s report and the
conclusions expressed in that report. Our QCR disclosed no instances in which
KPMG did not comply, in all material respects, with generally accepted
Government auditing standards.

We appreciate the courtesies and cooperation of DOT and its operating
administrations’ representatives during this engagement. If you have any questions
concerning this report, please call me at (202) 366-1407, or Nathan Custer,
Program Director, at (202) 366-5540.

                                        #

cc:   Deputy Secretary
      CIO Council Members
      DOT Audit Liaison, M-1
                                                                             3

EXHIBIT A. RECOMMENDATIONS OF KPMG LLP, INDEPENDENT
AUDITOR

KPMG LLP made the following recommendations during its review of DOT’s
information management practices for EVM. OIG agrees that DOT management
should implement the following controls.

                        DOT Chief Information Officer
        Update the DOT EVMIG to establish operational requirements and
   1    document a defined or recommended set of documents to be retained in
        the event of a formal project baseline change.
        Update policies and procedures for the validation of contractor cost
   2    estimates, and incorporate them into the DOT EVMIG and applicable
        DOT IBR guidance for Contracting Officers.
        Develop policies and procedures for the retention of COTR and
   3    Procurement documented conclusions on the validity of provided
        contractor cost estimates.
        Develop procedures to standardize program and project EVM data for all
   4
        OAs.
        Provide a platform or mechanism for ensuring appropriate personnel
        managing programs that require EVM reporting must obtain OCIO
   5    and/or Office of the Senior Procurement Executive (OSPE) sponsored
        training prior to awarding contract.
        Work with appropriate DOT personnel to ensure training qualifications
   6    are maintained in a designated repository.
                        FAA Chief Information Officer
        Further develop the FAA EVMS Training Module to promote
   7    consistency of reporting and awareness of EVMS requirements,
        specifically program and contractor IBR requirements.
        Require that the program teams attend corresponding trainings and EVM
   8    Focal Point staff will be responsible for the development and
        implementation of training.
        Develop a method for holding the program manager responsible for
   9
        ensuring the timely execution of the IBR.
        Retain evidence of requests for IBR deferrals past the required 180 day
  10    threshold. Require this evidence to be presented during the IBR Status
        Reports conducted with JRC.



Exhibit A. Recommendations of KPMG LLP, Independent Auditor
                                                                               4

        Develop policies and procedures documenting time requirements for
  11    certification of Contractor EVMS, as well as follow-up requirements to
        occur in the event contractor EVMS is unable to achieve certification.
  12    Certify the Crown EVMS for NEXCOM.
        Perform analysis of investments under development and associated
        contractor EVMS to identify non-certified systems currently being used
  13
        to report EVM data and perform analysis to determine impact of
        utilization of non-certified EVMS.
        Incorporate the timely and consistent tracking of EVMS certification into
  14
        year-end performance metrics for EVM Focal Point staff.




Exhibit A. Recommendations of KPMG LLP, Independent Auditor
                                                          5




Attachment
See the next page for the Independent Auditor’s Report.
Department of Transportation
Earned Value Management and Security Cost
Reporting Performance Audit



Prepared for: DOT Office of Inspector General
June 30, 2014




KPMG LLP
1676 International Drive, Suite 1200
McLean, VA 22102
                              Department of the Transportation
            Earned Value Management and Security Cost Reporting Performance Audit

                                                               Table of Contents

EVM and Security Cost Reporting Performance Audit Report
I. BACKGROUND ....................................................................................................................................... 3
II. OBJECTIVE, SCOPE, AND METHODOLOGY.................................................................................... 4
III. RESULTS ............................................................................................................................................... 8
IV. FINDINGS AND RECOMMENDATIONS......................................................................................... 21
   1. Insufficient program baseline change requirements across the DOT. ............................................. 21
   2. Standards for contractor cost validation not identified across the DOT. ........................................ 21
   3. Inconsistent EVM data tracking and reporting methods across the DOT. ...................................... 22
   4. No formalized EVMS training program established across the DOT. ............................................ 22
   5. Inconsistent Integrated Baseline Review (IBR) performance and tracking at Federal
       Aviation Administration (FAA). ..................................................................................................... 23
   6. Insufficient contractor EVMS certification and surveillance at FAA ............................................. 24
V. MANAGEMENT RESPONSE TO THE REPORT............................................................................... 26

Appendices
APPENDIX I – STATUS OF PRIOR-YEAR FINDINGS ......................................................................... 31
APPENDIX II – GLOSSARY OF TERMS ................................................................................................ 34
                               KPMG LLP
                               1676 International Drive
                               McLean, VA 22102




Mr. Louis C. King
Assistant Inspector General For Financial and Information Technology Audits
1200 New Jersey Avenue, SE
Washington, DC 20590


Re: The Department of the Transportation Earned Value Management and Security Cost
    Reporting 2014 Performance Audit

Dear Mr. King:

KPMG LLP (KPMG) was contracted by the Department of Transportation (DOT) Office of Inspector
General (OIG) to conduct a performance audit of the Department’s adoption and use of Earned Value
Management Systems (EVMS) across the Departmental Operating Administrations (OAs), and
specifically for certain major Information Technology (IT) investments. This report presents the results
of our work conducted to address the performance audit objectives relative to the DOT. Our work was
performed during the period of November 4, 2013 through March 10, 2014, and our results are as of
March 10, 2014.

We conducted this performance audit in accordance with generally accepted government auditing
standards (GAGAS). Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings and
recommendations based on our audit objectives.

Our audit objectives were to review the DOT EVMS organizational capability to assess how mature
DOT is in implementing EVMS and how mature the department is in EVMS as it relates to the
guidelines referenced in legislation, policy and standards pertaining to EVM. We assessed the
Department’s: (1) implementation of earned value management (EVM) policies, procedures and
practices for its IT investments; and (2) use of EVM data to plan, monitor, and report the status of its
IT investments and related security spending.

The DOT has established an EVMS policy that contains pre-established dollar thresholds and guidance
for IT investment owners to consider when implementing EVMS. In addition, various OAs have
improved their use of EVMS by establishing supporting materials, such as IT project management and
EVMS implementation guidance, providing EVMS training and conducting EVMS lessons learned
discussions. While these items help provide a foundation of EVMS guidance for OAs to follow and
investments to use, there are opportunities for improvement to further implement and use EVMS to
help manage major IT investments (MITI).

Overall, based on the interviews conducted, documents inspected, and test procedures performed
within the audit program guide, we determined that the DOT has inconsistently applied controls across
the ten (10) OAs and six (6) MITIs. As a result, the EVMS-related processes used to collect and report


                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
EVMS data cannot be relied on to properly reflect project performance in Exhibit 300 submissions. In
addition, we found that project management practices related to EVMS are not consistently applied
across the OAs and MITIs. Finally, the security cost estimates that are derived for Exhibit 300
submissions cannot be fully supported. Timely implementation of the recommendations is needed to
fulfill departmental requirements and achieve maturity in managing IT investments.

The detailed objectives of this performance audit are enumerated within Section II of the report. We
have identified six (6) Findings, which are enumerated within Section IV.

    1. Insufficient program baseline change requirements across the DOT.
    2. Standards for contractor cost validation were not identified across the DOT.
    3. Inconsistent EVM data tracking and reporting methods across the DOT.
    4. No formalized EVMS training program established across the DOT.
    5. Inconsistent Integrated Baseline Review (IBR) performance and tracking at Federal Aviation
       Administration (FAA).
    6. Insufficient contractor EVMS certification and surveillance at FAA

We currently report, for the DOT’s consideration, fourteen (14) recommendations from this
performance audit

This performance audit did not constitute an audit of financial statements in accordance with
Government Auditing Standards. KPMG was not engaged to, and did not render an opinion on the
DOT’s internal controls over financial reporting or over financial management systems (for purposes
of Office of Management and Budget Circular Number A-127, Financial Management Systems, July
23, 1993, as revised). KPMG cautions that projecting the results of our evaluation to future periods is
subject to the risks that controls may become inadequate because of changes in conditions or because
compliance with controls may deteriorate.

Appendix I, Status of Prior-Year Findings, summarizes the DOT’s progress in addressing prior-year
recommendations from the OIG report QC-2009-048 dated April 24, 2009, Quality Control Review of
the Department’s Implementation of Earned Value Management and Security Cost Reporting.
Appendix II contains a glossary of terms used in this report.

Sincerely,




                                                                                                 Page 2
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014

I. BACKGROUND

The Department of Transportation (DOT) mission is to serve the United States by ensuring a fast, safe,
efficient, accessible and convenient transportation system that meets our vital national interests and
enhances the quality of life of the American people, today and into the future. 1 According to the FY13
spending IT dashboard, DOT invested approximately $3.1 billion in information technology (IT) 2. In
order to derive the intended benefits of the programs and projects within the IT portfolio, project planning
and execution processes should be in place to control the establishment of baseline performance measures
and manage deviations from expected performance plans. Earned Value Management (EVM) data is a
critical component of the control phase of the IT capital planning process, because it provides investment
managers with the cost, schedule, and performance data necessary to help ensure that DOT investments
are delivered on time and perform within budget and scope. The addition of the variance and trend
analysis aspect of EVM permits an evaluation that monitors deviation from the baseline plan, which may
indicate potential threats or opportunities. Proper application of EVM also increases the level of
confidence of management that the investment is being managed in accordance with sound project
management practices.

The Office of the Secretary of Transportation (OST) is responsible for establishing the requisite policies
and procedures to govern the DOT OAs within the department for managing investments within the IT
portfolio, including policies and procedures related to IT capital planning and investment control (CPIC),
enterprise architecture (EA), program management, and project management. Policies and procedures
should reflect Office of Management and Budget (OMB) guidance, including provisions for using EVM
and estimating IT security costs for investments. In addition, the Operating Administrations (OAs) within
DOT are responsible for implementing the policies and procedures promulgated by OST in a manner
consistent with underlying EVM and IT security cost reporting objectives.

The following criteria are a listing of the key legislation, policies, and standards pertaining to Earned
Value Management System (EVMS) and IT investment and project management:

Legislation
   • Government Performance and Results Act of 1993 – mandates the use of performance metrics.
   • Federal Acquisition Streamlining Act of 1994 – requires agency heads to achieve, on average,
        90% of the cost and schedule goals established for major and non‐major acquisition programs of
        the agency without reducing the performance or capabilities of the items being acquired.
   • Clinger Cohen Act of 1996 – requires establishment of the processes for executive agencies to
        analyze, track, and evaluate the risks and results of major investments in IT and requires reporting
        on the net program performance benefits achieved by agencies.

Policies
    • OMB Circular Number (No.) A‐11 (Part 7, Planning, Budgeting, Acquisition and Management of
         Capital Assets) – outlines a systematic process for program management, which includes
         integration of program scope, schedule, and cost objective; requires use of earned value
         techniques for performance measurement during execution of the program; specifically identifies
         American National Standards Institute (ANSI)/Electronic Industries Alliance (EIA) Standard 748.
    • OMB Memorandum M‐04‐24, “Expanding Electronic Government (E‐Gov) President’s
         Management Agenda (PMA) Scorecard Cost, Schedule and Performance Standards for Success”
1
    http://www.dot.gov/mission/about-us
2
    https://myit-2014.itdashboard.gov/portfolios




                                                                                                      Page 3
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014

           – provides additional information on the PMA Expanded Electronic Government initiative and
           the standard for success concerning cost, schedule and performance goals.
      •    OMB Memorandum M‐05‐23, “Improving Information Technology (IT) Project Planning and
           Execution” – provides guidance to assist agencies in monitoring and improving project planning
           and execution and fully implementing EVMS for major IT projects.

Standards
   • ANSI/EIA Standard 748, Earned Value Management System (EVMS) – industry process for use of
       EVMS including integration of program scope, schedule and cost objectives, establishment of a
       baseline plan for accomplishment of program objectives, and use of earned value techniques for
       performance measurement during the execution of a program.
   • National Defense Industrial Association (NDIA) Program Management Systems Committee Intent
       Guide for Earned Value Management Systems – provides additional insight into the EVMS
       guidelines included in Section 2 of the ANSI/EIA Standard 748-A Standard for EVMS.

II. OBJECTIVE, SCOPE, AND METHODOLOGY

KPMG LLP (KPMG) was contracted by the DOT OIG to conduct a performance audit of the
Department’s adoption and use of EVMS across the departmental OAs, and specifically for certain major
IT investments (MITIs) 3.

Objectives

We were tasked with reviewing the DOT EVMS organizational capability to assess how mature DOT is
in implementing EVMS and how mature the department is in EVMS as it relates to the guidelines
referenced in legislation, policy and standards pertaining to EVM.

We assisted the DOT OIG in evaluating the maturity of EVM policies, practices, and data for the period
between November 4, 2013 through March 10, 2014 to evaluate the Department’s: (1) implementation of
EVM policies, procedures and practices for its IT investments; and (2) use of EVM data to plan, monitor,
and report the status of its IT investments and related security spending.

In addition, we were tasked with reviewing the DOT implementation and execution of three
recommendations made in the OIG report QC-2009-048, Quality Control Review of the Department’s
Implementation of Earned Value Management and Security Cost Reporting. The recommendations were:

      1. Establish a target date to complete and distribute the DOT EVM implementation guidance to
         OAs. This guidance should document processes and practices consistent with guidelines
         published by OMB.
      2. Require OAs to review all MITIs in the development phase for compliance with key OMB
         requirements for EVM implementation and report results to the Office of the Chief Information
         Officer (OCIO). Ensure that OAs establish a target date for correcting deficiencies found;
      3. Establish security cost estimation standards consistent with the National Institute of Standards
         and Technology (NIST), require OAs to follow the standards, and verify compliance with the
         standards by performing a sample review of OA security cost estimate submissions.



3
    A “major” IT investment refers to an IT Investment requiring an OMB Exhibit 300 Business Case.




                                                                                                     Page 4
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014


Scope

The performance audit procedures were limited to evaluating the implementation of EVM and security
cost estimating and reporting practices over ten (10) OAs and six (6) MITIs 4, which have been
summarized in Tables 1 and 2 below:

                     Table 1: Scope of EVM and Security Cost Reporting Analysis by OA
                                OA Selected                                EVM                                 Security
                                                                           (Y/N)                                 Cost
                                                                                                              Reporting
                                                                                                                (Y/N)
    Federal Aviation Administration (FAA)                                                     Y                   Y
    Federal Transit Administration (FTA)                                                      Y                   Y
    National Highway Traffic Safety Administration (NHTSA)                                    Y                   Y
    Pipeline and Hazardous Materials Safety Administration (PHMSA)                            Y                   Y
    Research and Innovative Technology Administration (RITA)                                  Y                   Y
    Office of the Secretary of Transportation (OST)                                           Y                   Y
    Federal Highway Administration (FHWA)                                                     Y                   Y
    Federal Motor Carrier Safety Administration (FMCSA)                                       Y                   Y
    Federal Railroad Administration (FRA)                                                     Y                   Y
    Maritime Administration (MARAD)                                                           Y                   Y
    Surface Transportation Board (STB)                                                        N5                  N5
    Saint Lawrence Seaway Development Corporation (SLSDC)                                     N5                  N5

                   Table 2: Scope of EVM and Security Cost Reporting Analysis for MITIs
                              MITI Selected                                EVM                                 Security
                                                                           (Y/N)                                 Cost
                                                                                                              Reporting
                                                                                                                (Y/N)
    FAA: Next Generation Air/Ground Communications (NEXCOM)
                                                                                               Y                   Y
    Segment 1a
    FAA: Automatic Dependent Surveillance-Broadcast (ADS-B)                                    Y                   Y
    FAA: Regulation and Certification Infrastructure for System Safety
                                                                                               Y                   Y
    (RCISS)
    FTA: National Transit Database (NTD)                                                       Y                   Y
    NHTSA: Crash Data Acquisition Network (CDAN)                                               Y                   Y
    OST: DOT Consolidated Operating Environment (COE)                                          Y                   Y

We designed the procedures to gain an understanding of how each OA and in-scope IT investment has
instituted practices related to EVM and security cost reporting, divided into the following sections:



5
 In the FY 2009 DOT EVMS performance audit it was determined the OA did not have any MITIs nor had they implemented
any EVMS over their IT portfolio. At the time, the OIG had determined to exclude these OAs from the scope of this performance
audit. In Fiscal Year (FY) 2013, it was reconfirmed that the OA still did not have any MITIs and was not required to implement
an EVMS over their IT portfolio.




                                                                                                                        Page 5
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014

       •   EVM Governance: Includes the policies and supporting guidance (i.e., project and program
           management) available to implement and use EVM.
       •   EVM Tools & Technology: Includes the EVM tools and related technologies used for IT
           projects (i.e., EVM-related tools, EVM engines, cost accounting tools, scheduling and resource
           management tools and technology integration).
       •   EVM Implementation & Performance: Includes EVM supporting standards and practices (e.g.,
           work breakdown structure and use, contract and scope management, resource planning and
           management, and EVM analysis techniques), EVMS certification, EVMS surveillance, EVM
           training, and EVM lessons learned.
       •   Security Cost Governance: Includes the policies and procedures in place for security cost
           analysis and estimation.
       •   Security Cost Estimating, Analysis and Reporting: Includes the practices used in analyzing,
           estimating, and reporting security costs.

We did not validate the security costs from the OMB Federal IT Dashboard 6 provided by DOT.

KPMG conducted fieldwork during the period of November 04, 2013 – March 10, 2014 at the DOT
Headquarters and FAA offices. Documented work and conclusions are based on information as of March
10, 2014.

Methodology

KPMG performed this performance audit in accordance with the Government Auditing Standards issued
by the Government Accountability Office (GAO). In particular, we designed our procedures to conform
to a performance audit defined by the Government Auditing Standards. The engagement was performed
in three phases: (1) Planning, (2) Testing and Interviews, and (3) Report Writing.

Planning – The planning phase was designed to help ensure that team members developed a collective
understanding of the EVM and security cost reporting practices in place for the ten (10) OAs and the six
(6) MITIs. We provided separate questionnaires to each OA and to each investment program team.

Questionnaires and provided by client (PBC) lists were provided to OA and MITI Program Management
during this phase of the engagement. Questionnaires and PBC lists were designed to provide a
foundational understanding with which to conduct interviews, for identifying additional documentation
requests, and identifying areas where additional focus was required in our testing.

Testing and Interviews – During the testing and interviewing phase, we conducted interviews with
program managers and senior management responsible for EVM, collected and inspected PBC artifacts,
participated in process walk-throughs and interviews with program staff, and performed test procedures.
Test procedures included pulling cost data from the OMB Federal IT Dashboard for the OAs. Testing
procedures were conducted primarily at DOT headquarters and FAA facilities in Washington, D.C.
Testing procedures over the EVM and security cost reporting practices were based on the Federal
legislation, policies, and industry standards.

KPMG’s testing procedures required us to select a sample of items from a population for testing. To do
so, we employed a risk-based approach to determine a subset of DOT information systems for the EVMS
Performance Audit. The universe for this subset only included major systems that are operational.

6
    http://www.itdashboard.gov




                                                                                                   Page 6
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014

Accordingly, our recommendations are applicable to the sample we tested and were not extrapolated to
the population (i.e., all OAs and all MITIs).

Report Writing – The report writing phase entailed writing a draft report, conducting an exit conference,
providing a formal draft report to OIG for review, and preparing and issuing the final report including
management’s response to the report.




                                                                                                   Page 7
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014


III. RESULTS

Feedback is critical to the success of any project. Timely and targeted feedback can enable project
managers to identify problems early and make adjustments that can keep a project on time and on budget.
In addition, early identification of cost and schedule variance information is needed by agency executives
to monitor and control risks within its investment portfolio. EVM is an effective performance
measurement and feedback tools for managing projects. EVM provides organizations with the
methodology needed to integrate the management of project scope, schedule, and cost. Cost data on
security spending is necessary to help ensure IT investments have adequately identified and budgeted for
security in a federal IT investment.

In the following section of the report, we provide the results of our interviews and testing across the
following sections pertaining to EVM to meet the performance audit objectives above in Section II:

    •   EVM Governance
    •   EVM Tools & Technology
    •   EVM Implementation & Performance
    •   Security Cost Governance
    •   Security Cost Estimating, Analysis and Reporting

EVM Governance

EVM governance consists of the policies, procedures and practices in place to establish requirements for
EVM implementation and performance management within project and program management practices.
The OST is responsible for providing this guidance to the OAs, with the exception of the FAA, which
utilizes its own acquisition system known as the Acquisition Management System (AMS). The AMS
establishes the FAA’s acquisition policy and contains FAA specific EVM guidance. The FAA AMS is
discussed in further detail below.

OST EVM Policy
The DOT EVM Policy was initially made effective on January 14, 2008. DOT has since provided updated
guidance for application across OAs pertaining to the implementation and execution of EVM. DOT EVM
Order 1351.22.1 and the DOT Earned Value Management Implementation Guide (EVMIG) were
developed with the objective of providing guidance to DOT OAs for all projects that require EVM
implementation. The DOT EVM Order 1351.22.1 was signed into effect on July 15, 2010 and establishes
the EVM policy within the DOT. The policy applies to all DOT IT Investments that are required to
complete an OMB Circular No. A-11, Exhibit 300 business case.

The DOT EVMIG was first issued in draft form on April 9, 2007. The DOT EVMIG has incorporated
seven (7) policy revisions and was last updated on September 29, 2010. The DOT EVMIG is designed to
facilitate uniform and consistent EVM implementation practices for all relevant DOT IT investments.
Specifically, the guide details the DOT requirements for compliance with the 32 ANSI/EIA Standard 748
guidelines, as well as the investment EVM tier thresholds for EVM reporting.

The degree to which EVM is applied to MITIs varies depending on the size and complexity of the IT
investment. The DOT EVMIG identifies three (3) tiers of EVM rigor to be applied to IT investments.
Additional guidance over consolidated investments is provided within the DOT EVMIG. EVM tiers and
consolidated investment guidance is depicted in Table 3 below:



                                                                                                    Page 8
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014


                            Table 3: DOT EVM Tier Thresholds and Requirements
    Investment        Total Contract Development,                       Description
    EVM Tier              Modernization, and
                      Enhancement (DME 7) Value
                                                   IT investments with total DME costs equal to or
                                                   greater than $20 million (then-year dollars) must
       Tier I                    ≥$20 M
                                                   implement an EVMS that fully complies with all
                                                   ANSI/EIA Standard 748 Guidelines.
                                                   IT investments with total DME life-cycle
                                                   acquisition costs equal to or greater than $10
                                ≥ $10 M            million but less than $20 million (then-year dollars)
      Tier II8
                                < $20 M            must implement, at a minimum, an EVMS that
                                                   complies with a subset of ANSI/EIA Standard 748
                                                   Guidelines as detailed in the DOT EVMIG.
                                                   IT investments with total DME life-cycle
                                                   acquisition costs less than $10 million (then-year
     Tier III 8                 < $10 M            dollars) are not required to implement an EVMS.
                                                   This does not exclude investments in this tier from
                                                   performing prudent program management practices.

Consolidated investments, or a collection of separate projects that pool resources and capabilities together
to facilitate the effective management of all the work necessary to meet strategic objectives, are to apply
the Tier I, II, or III EVM requirements to each subordinate investment, and not at the consolidated
investment level.

Additional DOT Policy Requirements to be applied to Tier I and Tier II investments include:
   • EVM requirements at the investment level shall also be required for all contractor and
       government entities accomplishing the work.
   • An investment Integrated Baseline Review (IBR) 9 shall be conducted within 180 days after the
       Performance Measurement Baseline (PMB) has been established and contract(s) awarded. An
       IBR shall also be conducted when the investment has been rebaselined.
   • IT investment EVM data shall be submitted on a monthly basis using the DOT Capital Planning
       Tool, or any other agreed upon method with the Associate Chief Information Officer (ACIO) for
       IT policy oversight. The investment level EVM data shall be derived from the project level EVM
       data to ensure data consistence and generate an audit trail for how investment level EVM data
       was derived.
   • A DOT EVM training program shall be established to identify available EVM courses and
       provide each target audience, including executive-level audiences, with a set of required,
       suggested, and optional EVM course offerings. OAs may include complementary EVM training
       under DOT EVM training guidelines to address unique OA requirements or issues.
7
  EVM is applied to any budgeted work for DME activities. These activities include all acquisitions necessary to either complete
a new investment or update an existing one. As an investment’s scope and cost increase, a greater level of EVM rigor is
necessary to effectively manage the investment. The DOT-wide EVM requirement thresholds are based on the total life-cycle
DME costs of the investments within the agency’s portfolio. Source: DOT EVMIG dated September 29, 2010.
8
  Tier III threshold was increased to $10 M on April 27, 2009. Previously the Tier III threshold was $3 M.
9
  The IBR is a critical, comprehensive evaluation of the PMB addressing the identification of inherent risk and baseline realism.
It is a joint assessment by the government and contractors that must be performed before any development work has commenced,
additional work scope added, or a shift in the content or phasing of the PMB. Source: DOT EVMIG dated September 29, 2010.




                                                                                                                          Page 9
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014

     •   The Investment Review Board (IRB) for each OA is responsible for reviewing and providing
         recommendations regarding baseline changes and submit them to the ACIO IT Policy Oversight
         Office for review and approval by the DOT IRB Executive Committee Staff, prior to final
         approval by OMB.
     •   Investments are required to complete and maintain a comprehensive work breakdown structure
         (WBS) 10. Additionally, they are required to utilize the DOT’s standard WBS as the organizational
         foundation for their overall scope.
     •   Investments must incorporate work scope and other authorized changes into their PMB 11 in a
         documented and timely manner.
     •   Investments must develop a master schedule, including work tasks and decision points. Activities
         must have clearly defined start and completion criteria and dependencies between activities must
         be indicated in an appropriate level of detail. Critical path must be determined. Schedule must
         then be integrated with WBS (and organizational breakdown structure (OBS) for Tier I
         investments) to properly track and assess work progress and performance.

The requirements above were utilized throughout the Testing and Interview Phase to provide a basis for
the evaluation of OA and Investment EVM compliance.

While DOT policy contains the requirements stated above, OST Management has not developed nor
promulgated guidance pertaining to the application and management of EVM across OAs and MITIs.
Specifically, we noted the following:
   • DOT EVM guidance lacks sufficient program baseline change requirements. Specifically, no
        formal rebaselining documentation retention requirements have been documented within the DOT
        EVM guidance for use across DOT OAs.
   • Formalized standards or recommended guidance for validating contractor cost estimates are not
        documented within the DOT EVMIG and consistently applied across OAs.
   • DOT has not implemented a consistent enterprise approach to managing and applying EVM data
        across OAs or investments. Specifically, tools and technology utilized to document, track,
        evaluate, and report EVM data is not standardized across DOT OAs.
   • There is no formalized DOT training program pertaining to EVMS. The OST has not provided
        standardized EVMS training for utilization within DOT OAs.

We have included these weaknesses in the Findings and Recommendations section of this report.

Since the OIG report QC-2009-048 dated April 24, 2009, Quality Control Review of the Department’s
Implementation of Earned Value Management and Security Cost Reporting, DOT EVM Policies and
Procedures continue to be developed within the department and across OAs. The alteration of EVM
Reporting Tiers (see Table 4) has impacted the degree to which EVM data is being reported. The EVM
Tier II threshold was raised in an effort to align DOT EVM standards with those of the FAA, which
operates an independent EVM policy as documented below. As a result, a greater number of investments
now fall within the Tier III threshold, which does not require the utilization of EVM in projects.



10
   The WBS is a tool for defining the hierarchical breakdown of work necessary to meet an investment’s objectives. It is
developed by first identifying the high level “buckets” of work in the investment. These major components are broken down into
smaller ones until they represent distinguishable products or deliverables. Source: DOT EVMIG dated September 29, 2010.
11
   The time-phased budget plan against which investment performance is measured. Source: DOT EVMIG dated September 29,
2010.




                                                                                                                       Page 10
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014


FAA EVM Policy
The FAA has their own EVMS policy and implementation guidance documented in the AMS. Key
requirements of this policy are documented below:

       •    DME programs must use an EVM system based on the guidelines in ANSI/EIA Standard 748 for
            the total program effort, including both government and contractor work, according to the
            following table. Program EVM must be consistent with the acquisition strategy in the
            implementation strategy and planning document, Section 3.2, Program Control. Major investment
            programs are those required by the OMB to submit an OMB Exhibit 300. The Joint Resources
            Council or appropriate investment decision authority (IDA) designates non-major programs
            required to have an EVMS.

                                 Table 4: Program EVMS Requirements
           EVMS Requirements         Program Type        Program Type                        Program Type
                                          Major           Non-Major                              Other
              Exhibit 300                   R                  T                                  O
      Integrated Master Schedule            R                  T                                  O
      Integrated Baseline Review            R                  T                                  O
      EVM Standard Compliance               R                  R                                  O
       EVM System Certification             R                  O                                  O
       R = Required by approving authority
       T = Tailored: requirement may be tailored by program
       O = Optional

       •    Contractor EVM implementation must be consistent with the strategy in the implementation
            strategy and planning document, Section 2.8, Contract Management. All capital investment
            programs must use the following table to determine the application of EVM to the development,
            modernization, and enhancement work assigned to contractors. The requirements apply to all
            contract types. On an exception basis, low-risk contractor efforts, i.e., firm fixed-price production,
            may implement EVM within a FAA program office at the program level. Contractor EVM
            implementation must be based on an assessment of the cost, schedule, and technical performance
            risk of each contract.

                                Table 5: FAA Contract EVMS Requirements
           EVMS Requirements            Total Contract Value ($M)    Total Contract Value ($M)
                                                > $10 M                      < $10 M
               Exhibit 300                          R                            O
       Integrated Master Schedule                   R                            O
       Integrated Baseline Review                   R                            O
       EVM Standard Compliance                      R                            O
       EVM System Certification                     R                            O
       R = Required by approving authority
       O = Optional 12

The FAA issued the FAA EVM Guide policy document in March 2012, which provides specific
implementation guidance to program managers and contracting officers. The FAA EVM Guide provides

12
     Source: FAA AMS, Sections 4.16.1 – 4.16.2




                                                                                                           Page 11
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014

FAA program managers, contracting officers, executives, executive committees, and review boards with a
further understanding of the application of EVM concepts in support of program management practices.
FAA programs apply EVM methodologies to the total program effort, including both government and
contractor work, to manage complex, high-risk, high-cost, or high-visibility efforts. This application of
EVM to performing organizations is highlighted below:

                                  Table 6: EVMS methodologies for organizations
     Performing                                      EVMS Consideration
     Organization
                           Government organizations and personnel (Full-Time Equivalents (FTEs)), while
                           commonly used to perform program management and oversight, may also perform
                           engineering, testing, deployment, and logistics support functions. All work and
     Government
                           program activities performed by government personnel are assigned using the
     Organizations
                           program baseline WBS and are managed using EVM. FAA programs required to
                           use EVM must include resources for all government DME effort included in the
                           IDA-approved program baseline.
                           Major contractors commonly are employed in the areas of design, engineering,
                           development, deployment, and support functions. All work and program activities
                           performed by major contractors are assigned using the program baseline WBS and
         Major
                           are managed using EVM. FAA programs required to use EVM must include
       Contractors
                           resources for all major contractor effort included in the IDA approved program
                           baseline. Implementation of EVM on major contractor effort must be consistent
                           with AMS EVM policy, paragraph 4.16.2 Contract Requirements.
                           Support contractors commonly perform support roles in one or more areas of
                           program management, engineering, configuration management, test, and logistics.
                           All work and program activities performed by support contractors are assigned
        Support            using the program baseline WBS and are managed using EVM. FAA programs
       Contractors         required to use EVM must include resources for all support contractor effort
                           included in the -approved program baseline. Implementation of EVM on support
                           contractor effort must be consistent with AMS EVM policy, paragraph 4.16.2
                           Contract Requirements.

The FAA EVM Guide identifies additional requirements for projects requiring the use of EVM, including
the use of a standard lifecycle WBS, baseline management and variance monitoring activities, and EVMS
certification and surveillance practices.

The FAA also has provided guidance 13 on program management practices such as:
   • Contractor Management
   • Measurement & Analysis
   • Program Management
   • Quality Assurance
   • Requirements Management
   • Risk Management
   • Verification and Validation



13
     http://www.fast.faa.gov




                                                                                                      Page 12
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014


EVM Tools and Technology

EVM tools are utilized to create and manage the cost and schedule of projects, including those for
developing WBS elements, tracking the completion of project activities, and performing EVM related
calculations (e.g., cost variance (CV), cost performance index (CPI), schedule variance (SV), schedule
performance index (SPI)).

Currently, there are no prescribed or standard tools selected by OST for managing projects, performing
project level EVM calculations or reporting EVM data. However, data types are standardized. For
example, although the use of Microsoft (MS) Project is not mandatory, the departmental requirements to
record project management data establish it as a commonly used tool for WBS maintenance and project
schedule management. The Oracle Primavera Portfolio Management (OPPM) tool, managed by FAA, is
utilized across OAs for reporting EVM and Investment data. The OPPM tool produces Exhibit 300
reports (when required) and IT Dashboard postings.

We noted that reporting tools vary from project to project within an OA. Similarly, they vary from OA to
OA. These tool types include:
   • EVM Calculation and Reporting (Program / Project Level)
   • EVM Calculations (Investment Portfolio Level)
   • Schedule/WBS Management
   • Cost Accounting

A summarization of the various tools observed for the management of EVM data are documented below:

                               Table 7: EVM Tools and Technology
    OA         EVM Calculations            EVM         Schedules / WBS             Cost Accounting
               (Program / Project       Calculations
                     Data)            (Portfolio Data)
                  Deltek Cobra
 FAA                                      OPPM            MS Project                   DELPHI
                EVMS for Project
 FTA                MS Excel                 OPPM              MS Project              DELPHI
                                                             Management               DELPHI
 NHTSA               Ecosys                  OPPM           Activity Planning      Microsoft Project
                                                            System (MAPS)               Server
 PHMSA              MS Excel                 OPPM              MS Project              DELPHI
 RITA               MS Excel                 OPPM              MS Project              DELPHI
 OST                MS Excel                 OPPM              MS Project              DELPHI
 FHWA               MS Excel                 OPPM              MS Project              DELPHI
 FMCSA              MS Excel                 OPPM              MS Project              DELPHI
                                                                                      DELPHI
 FRA             MS Sharepoint               OPPM             MS Sharepoint
                                                                                    MS Sharepoint
                                                               MS Project
 MARAD              MS Excel                 OPPM                                      DELPHI
                                                                OPPM




                                                                                                 Page 13
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014


EVM Implementation and Performance

KPMG noted that of the ten (10) OAs and six (6) MITIs selected, only OST, FAA and FAA MITIS
(ADS-B and NEXCOM) were required per DOT/FAA and ANSI/EIA Standard 748 Guidance to report
full EVM data. The table below provides a summary of the OAs and MITIs selected, and the applicability
of EVM reporting requirements. The security cost data in Tables 8 and 9 for the MITIs was provided by
DOT and we did not validate the accuracy of the data reported to OMB.

                           Table 8: OA EVM Application and Applicability
    OA          Number of MITIs       EVM                      Additional Information
                                     Required
                                                33 Investments require an Exhibit 300 Business
                                                Case. EVM is required for multiple FAA MITIs.
                                                Two of three investments selected for testing meet
FAA                   33               Yes
                                                the $10 million Development, Modernization, and
                                                Enhancement (DME) cost threshold for EVM
                                                reporting.
                                                National Transit Database (NTD) Modernization
                                                Project is the FTA’s only MITI. With a total DME
                                                cost of less than $4 Million, it is a Tier III
FTA                    1               No       investment as defined in DOT Order 1351.22.1 (less
                                                than $10 million). As such, it is not subject to
                                                formal EVM requirements. EVM has been
                                                voluntarily applied at the investment level.
                                                Although an Exhibit 300 business case is required
                                                for 1 investment, the investment’s DME costs do
NHTSA                  1               No
                                                not exceed the $10 million threshold for EVM
                                                reporting.
                                                No investments require an Exhibit 300 business case
PHMSA 14               1               No
                                                & no investments w/ DME costs > $10 M.
                                                No investments require an Exhibit 300 business case
RITA 15                1               No
                                                and no investments w/ DME costs > $10 M.
                                                Two (2) investments within OST have DME costs
                                                exceeding the $20 million threshold for EVM
                                                reporting. One of the investments selected for
OST                    4               Yes      testing is a consolidated investment and subordinate
                                                investments do not exceed the $10 million threshold
                                                for EVM reporting. The other investment that was
                                                not selected is Tier I investment.
FHWA                   0               No       No investments w/ DME costs > $10 M.



14
   The PHMSA major investment National Pipeline Information Exchange (NPIX) is shown as requiring an Exhibit 300 on the IT
Dashboard. However, we determined that the investment was not funded during the year, and has been delayed until 2015. As a
result, the investment does not require an Exhibit 300 or monthly IT Dashboard update.
15
   The RITA major investment Aviation Information System (AIS) is shown as requiring an Exhibit 300 on the IT Dashboard.
However, we determined that the investment was downgraded to a non-major investment, and thus does not require an Exhibit
300 or monthly IT Dashboard update.




                                                                                                                   Page 14
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014

   OA        Number of MITIs          EVM                           Additional Information
                                     Required
                                                      Although an Exhibit 300 business case is required
                                                      for 3 investments, the investments’ DME costs do
FMCSA                 3                  No
                                                      not exceed the $10 million threshold for EVM
                                                      reporting.
FRA                   0                  No           No investments w/ DME costs > $10 M.
MARAD                 0                  No           No investments w/ DME costs > $10 M.

                          Table 9: MITI EVM Application and Applicability
MITI Selected       Associated        ANSI/EIA          EVM            Additional Information
                       OA         Standard 748 Tier   Required
  NEXCOM
                       FAA                Tier I              Yes        DME Costs for FY 2013 > 10M.
  Segment 1a
    ADS-B              FAA                Tier I              Yes        DME Costs for FY 2013 > 10M.
                                                                         EVM applied to individual
                                                                         investments. RCISS consists of
                                        Tier III
    RCISS              FAA                                     No        multiple projects within the
                                     (Consolidated)
                                                                         single investment. For each
                                                                         project, DME Costs < 10M.
     NTD              FTA                Tier III              No        DME Costs for FY 2013 < 10M.
    CDAN             NHTSA               Tier III              No        DME Costs for FY 2013 < 10M.
                                                                         DOT COE is a collection of
                                         Tier I                          individual projects, none of
  DOT COE              OST                                     No
                                     (Consolidated)                      which exceed $10 million in
                                                                         DME costs.

We evaluated the EVMS implementation and performance management practices across OAs based on
the EVM requirement status identified above. This includes the evaluation of the following attributes:
    • Whether federal employee and contractor costs resources are assigned project work elements
    • Whether standard EVMS requirements in contracts is used for major investments
    • Whether EVMS system certification is or has been performed for major investments
    • Whether EVMS system surveillance is used for contractors managing EVMS for major
      investments
    • Whether a standard WBS is used for major investments
    • Whether EVMS training has been provided for those using EVMS
    • The frequency with which EVMS is analyzed minimally monthly in accordance with OST/FAA
      requirements
    • Whether the Performance Reference Model (PRM) is used to monitor major investment
      performance
    • Whether EVMS lessons learned are being used to evaluate the use of EVMS

As noted above, these EVM implementation and performance practices either are required by OMB
policy, DOT policy, or are related to industry-based practices. We evaluated these EVM related attributes
across each OA and IT investment selected. Table 10 contains a summary of the EVMS implementation
attributes and the results of our analysis:




                                                                                                   Page 15
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014



         Table 10: EVMS Implementation & Performance Management for OAs and Investments




                                                                                                                                                       PRM used to monitor
                                        contract language for




                                                                                                                                                        majors performance
                    based on who does




                                                                                                   Standard WBS for
                                                                                                   major investments




                                                                                                                                                                             learned performed
                     EVMS calculated




                                                                                 EVMS contractor
                                          Standard EVMS




                                                                                                                                       EVMS analysis
                                                                                                                       EVMS training




                                                                                                                                                                               EVMS lessons
                                                                EVMS system
                                                                 certification



                                                                                   surveillance




                                                                                                                                         frequency
                                                                                                                         provided
                                               majors




                                                                                                                                                              (Y/N)




                                                                                                                                                                                   (Y/N)
                          (Y/N)




                                               (Y/N)



                                                                    (Y/N)



                                                                                      (Y/N)



                                                                                                         (Y/N)



                                                                                                                          (Y/N)
                           work
     OA
(Investments)




                                                                             EVM REQUIRED
                                                                       1
     FAA                 Y                    Y                     N               N2                 Y                   Y           Monthly                 Y                    Y

     OST                 N3                   Y                      Y               Y                 Y                  N4           Monthly                 Y                    Y

                                                                         EVM NOT REQUIRED
          6
     FTA                 Y                     Y                     N               N                 N                   N           Monthly                 Y                    Y

   NHTSA6                N                     N                     N               N                 N                   N                 N/A               Y                    N

   PHMSA5                N                     Y                     N               N                 N                   N           Monthly                 Y                    N

    RITA5                N                    Y                      N               N                 N                   N           Quarterly               Y                    N

    FHWA6                Y                     N                     N               N                 N                   N           Monthly                 N                    N

   FMCSA6                N                    Y                      N               N                 Y                   Y           Monthly                 N                    N

     FRA5                N                     Y                     N               N                 N                   N           Monthly                 Y                    Y

   MARAD5                Y                     Y                     N               N                 Y                   N                 N/A               Y                    N
Tick Mark Legend:
1
  FAA has not fully enforced EVMS certification over contractor operated EVMS in accordance with FAA policy.
2
  FAA has not fully implemented EVMS contractor surveillance practices, including the performance of IBRs in accordance with FAA policy.
3
  See Section: ‘EVM Governance’ for documentation of findings identified pertaining to EVMS calculations and contractor cost validation
methods.
4
  See Section:’ EVM Governance’ for documentation of findings identified pertaining to EVM training.
5
  DOT represented that there are no major investments currently reported by the OA.
6
  The criteria is not required based on investment tier per DOT EVM policy and ANSI/EIA Standard 748 Guidelines.


Although Tier III MITIs and OAs with no major investments are not required to adhere to DOT EVM
requirements, the analysis of EVM performance and implementation was performed over all OAs and
MITIs selected. As a result, findings are identified for only those investments required to adhere to OMB,
DOT, and FAA guidance regarding EVM. The increase in the Tier II threshold contributed to an
increased exclusion of OAs and MITIs requiring the utilization of EVM.

The analysis performed indicates that OAs and investments are inconsistently applying EVMS
implementation and performance practices.

These weaknesses have been included in the Findings and Recommendations section of this report.




                                                                                                                                                                                 Page 16
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014

Security Cost Governance

OST is responsible for providing policies and procedures over the OAs for estimating, analyzing and
reporting IT security costs. We noted that OST has developed policies and procedures for estimating,
analyzing, and reporting IT security cost estimates, and has promoted guidance which forms the
foundation for the Department of Transportation Information Systems Security Program.

DOT Information Systems Security Policy
DOT CyberSecurity Policy Order 1351.37 and the Departmental Cybersecurity Compendium
supplemental guidance establish the processes, procedures, and standards of the Department of
Transportation Information Systems Security Program. DOT EVM Order 1351.37, dated June 21, 2011,
provides IT Security process and procedural guidance, and documents pertinent security responsibilites of
administrative personnel within DOT and its OAs (listed as “components” within the document). The
responsibilities include:

    •   On an Information System level, Authorizing Officials (AO) are responsible for ensuring
        vulnerabilities and weaknesses associated with unacceptable risks are listed in the information
        system Plan of Action and Milestones (POA&M), which is updated quarterly. For POA&M items
        that require resources, the AO must specify whether funds will come from a reallocation of base
        resources or a request for new funding. If a request for new funding is deemed necessary, the AO
        must provide the Component Chief Information Officer (CIO) and DOT CIO a brief rationale to
        support the request.
    •   On an Information System level, System Owners (SO) are responsible for:
            - Categorizing the criticality/sensitivity of the information system in accordance with
                Federal Information Processing Standards (FIPS) 199 and ensuring the categorization
                receives the approval of AO.
            - Implementing a level of security commensurate with the information system impact level.
            - Including security considerations and identify associated security funding requirements in
                the procurement of information system software, hardware, and support services,
                including information system development, implementation, operation and maintenance,
                disposal activities (i.e., life cycle management), and weakness remediation / mitigation
                associated with unacceptable risks tracked in POA&M.

The Departmental Cybersecurity Compendium, dated June 14, 2011, provides further detail on
Department-wide cybersecurity policies and controls. Relevant requirements include:

•   DOT Components must (Control SA-2: Allocation of Resources):
          - Include a determination of information security requirements for the information system
             in mission/business process planning.
          - Determine, document, and allocate the resources required to protect the information
             system as part of its capital planning and investment control process.
          - Establish a discrete line item for information security in organizational programming and
             budgeting documentation.
•   DOT Components must (Control PM-3: Information Security Resources):
          - Ensure that all capital planning and investment requests include the resources needed to
             implement the information security program and documents all exceptions to this
             requirement.
          - Employ a business case/Exhibit 300/Exhibit 53 to record the resources required.
          - Ensure that information security resources are available for expenditure as planned.



                                                                                                  Page 17
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014


Security Cost Estimating, Analyzing and Reporting

Across OAs, management represented that historical information and a risk-based approach to addressing
security weaknesses were used to estimate security costs. OAs applied different methods for security cost
reporting and for calculating security related cost inputs. MITIs followed the OAs methods for estimating
security costs (i.e., NEXCOM, ADS-B, and RCISS follow FAA, NTD follows FTA, and CDAN follows
NHTSA). These security costs were funded either at the investment level, centrally through the program
office, or as a combination of the two methods.

Table 11 contains a summary of how management represents how each OA reported their security costs
and demonstrates the inconsistency of security costs reporting across the DOT.

                           Table 11: Security Cost Estimating and Reporting by OA
      OA           Policy for                            Security related costs
                   developing
                     security
                    estimates
                      (Y/N)
                                  Investments map security spending to the following (13) security
                                  elements:
                                  • Anti-Virus Software Licensing Costs
                                  • Anti-Malware Software Licensing Costs
                                  • Intrusion Detection Systems Licensing Costs
                                  • Intrusion Prevention Systems Licensing Costs
                                  • Web Filtering Software Licensing Costs
                                  • Email filtering software
                                  • Security Information Management (SIM) / Security Information
                                      and Event Management (SIEM )tools
FAA                     N         • Data Leakage Protection tools
                                  • Costs for NIST Special Publication (SP) 800-37 implementation
                                  • Costs for annual FISMA testing
                                  • Costs for network penetration testing activities
                                  • Security awareness training costs
                                  • Security training costs for employees with significant security
                                      responsibilities

                                   Security costs are incorporated into project WBS. Organizational IT
                                   Security spending includes governance training and compliance
                                   through the Office of Information Systems Security group.
                                   Factors that influence security costs include the Information System
                                   Security Manager (ISSM) and his backups, the security contractor
                                   who conducts the Security Assessment and Authorization (SA&A),
                                   and known costs for specific items such as Personal Identity
FTA                     N
                                   Verification (PIV) card enabling.

                                   On a project basis, contractors who are performing specific security
                                   tasks bill to a designated security Contract Line Item Number (CLIN).




                                                                                                  Page 18
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014

      OA          Policy for                             Security related costs
                  developing
                    security
                   estimates
                     (Y/N)
                                 Systematic and risk based prioritization of information security
                                 funding. Security costs for each control include the costs for the FTE
                                 allocation, federal oversight and hardware/software/services levels
                                 during the investment’s select CPIC phase.
NHTSA                 N
                                 When an investment is created, default numbers are entered with
                                 iREx. The Project Manager (PM) is responsible for revising and
                                 validating the cost data.
                                 PHMSA investment owners work with IT Security Team /
                                 Information Systems Security Officer (ISSO) team to ensure security
                                 costs are properly funded. This includes Certification and
                                 Accreditation (C&A) activities and completing POA&Ms.
PHMSA                 Y
                                 System owner estimates the POA&M cost in hours. The system
                                 owner then works with the IT project manager to determine an overall
                                 remediation cost by multiplying the number of hours by the
                                 appropriate rate(s). The project owner then supplies the security team
                                 with dollar amounts to resolve each POA&M to enter into CSAM.
                                 Security Cost considerations include costs of security assessments,
                                 system security plan, vulnerability scanning and remediation, anti-
                                 virus and anti-malware products, system-specific security training,
RITA                  N          and development of the secure baseline configuration of the system.
                                 Most security costs are borne at the RITA CIO level and not
                                 embedded in the project budgets. Security cost estimation is
                                 inconsistently performed at the project level.
                                 Security awareness training, privacy training, and Federal Information
                                 Security Management Act of 2002 (FISMA) reporting tool use
                                 (CSAM). Funds are requested by OST from the OAs for these
OST                   N          services.

                                 Costs for certification and accreditation, risk assessments, and risk
                                 mitigation activities are captured in the budgets of major investments.
                                 Risk assessments capture current level of risk for the system, provides
                                 risk mitigation strategies, and recommended level of effort (FTE
                                 hours and cost) to fund the implementation of recommended IT
                                 security controls to comply with FISMA (NIST SP 800-53 annual
FHWA                  N
                                 control testing, DR testing, security plan review, etc.). Risk level is
                                 calculated based on the determined likelihood and magnitude of
                                 impact for each vulnerability. A cost performance rating is
                                 determined based on the estimated level of effort.




                                                                                                 Page 19
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014

      OA           Policy for                               Security related costs
                   developing
                     security
                    estimates
                      (Y/N)
                                    Centrally funded costs – Security awareness training, intrusion
                                    detection, incident response, vulnerability management, contingency
                                    plan and test, security assessment and authorization and privacy
                                    impact assessment.
FMCSA                   N
                                    Program costs – security controls and costs to comply with FISMA
                                    (NIST SP 800-53 annual control testing, annual disaster recovery
                                    (DR) testing, security plan review, etc.).
                                    IT Security teams conduct cost analysis at control level. WBS
                                    contains system specific security activities and costing data. IT
FRA                     N
                                    Security assigns work hours to the activity. Resource sheets assign
                                    hourly rates to resources.
                                    Monthly vulnerability scanning performed. Risk classification
                                    determines funding. Costs are estimated with the Federal Enterprise
MARAD                   Y           Architecture Security and Privacy Profile (FEA SPP) Prototype, a
                                    tool used to estimate the remediation costs based on the NIST control
                                    that is rendered vulnerable by the risk.

We did not validate the security cost estimates, because a standard security cost estimation process does
not exist and has not been developed nor promulgated by OST. While a small number of proprietary tools
are used by individual OAs (i.e., NHTSA uses iREx to calculate its security costs), a standard policy or
tool suite has not been implemented across DOT. OST acknowledged this and stated that security cost
estimation procedures are in the process of being finalized, and noted that a March 30, 2014 deadline is in
place to “Develop and/or revise the Department’s EA procedures to address the following: creation of a
standardized methodology that provides reliable estimates of security funding needed for system
investments.” OST Management stated that they anticipate meeting this target delivery date. This finding
was reported within the FY 2013 DOT FISMA Report, Report Number: FI-2014-006, issued November
22, 2013. This will not be issued as part of the FY2014 DOT EVM Performance Audit. Please refer to the
referenced FISMA Report for additional information and current remediation progress.

Because DOT has not provided guidance on estimating IT security costs, the security estimates are being
self-reported by the OAs and do not follow any consistent, predictable methodology from which future
projections can be based. Finally, the security costs for the common IT services (i.e., DOT COE) do not
follow a consistent methodology that provides a reasonable estimate of future security costs based on the
services rendered as the subordinate investments are migrated to the common operating environment.
Please refer to Appendix I for DOT’s progress in addressing prior-year recommendations from the OIG
report QC-2009-048 dated April 24, 2009, Quality Control Review of the Department’s Implementation of
Earned Value Management and Security Cost Reporting.




                                                                                                    Page 20
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014


IV. FINDINGS AND RECOMMENDATIONS

1. Insufficient program baseline change requirements across the DOT.

   DOT EVM guide lacks sufficient guidance on the rebaselining documentation retention for use across
   DOT OAs. Specifically, a defined documentation set to be retained in the event of a formal project
   baseline change has not been incorporated into Departmental policy.

   OST, who has a responsibility for coordinating and promulgating EVM requirements, has not had
   adequate resources dedicated to creating and promulgating EVM requirements, specifically
   documentation retention requirements pertaining to program rebaselining decisions to be leveraged
   across OAs. Without documented retention requirements or a DOT standard list of documents to be
   retained in the event of a program rebaseline, rebaseline documentation may not be retained or made
   available in the event a review of the rebaseline decision is performed. Rebaseline documentation is
   important to prevent any unauthorized revisions of the PMB. Documents retained may also be
   inconsistent among agencies, resulting in inconsistent post-execution reviews of program baseline
   changes.

   We recommend that OCIO update the DOT EVMIG to establish operational requirements and
   document a defined or recommended set of documents to be retained in the event of a formal project
   baseline change.


2. Standards for contractor cost validation not identified across the DOT.

   Formalized standards or recommended guidance for validating contractor cost estimates are not
   documented within the DOT EVMIG.

   OST Management indicated a lack of consistency in the validation process, specifically, in regards to
   the coordination between the Contracting Officer’s Technical Representative (COTR) and
   Procurement groups, in efforts to validate the accuracy of contractor cost estimates prior to
   acceptance.

   Contractor cost estimates are required to be independently validated within their respective OAs
   during the IBR process, as the submission of accurate contractor cost data is critical to the consistent
   and accurate EVM reporting. However, recommended methodologies are not identified within DOT
   guidance to assist in the consistent analysis of submitted contractor costs.

   OST, who has responsibility for coordinating and promulgating EVM requirements, has not had
   adequate resources dedicated to creating and promulgating EVM requirements, specifically in regard
   to the development and inclusion of contractor cost validation guidance into DOT policy. Without
   formalized standards or recommended guidance for the validation of contractor cost estimates, control
   account estimates may be inconsistently validated across OAs and investments by program
   management. Submitted contractor costs are at risk of being accepted without sufficient validation or
   review, thus hindering DOT’s objective of providing timely, valid, and auditable investment cost and
   schedule status information to program managers, senior managers, executive sponsors, and
   stakeholders.




                                                                                                    Page 21
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014

   We recommend that the Office of the Senior Procurement Executive (OSPE) with assistance from the
   OCIO:

       1. Update policies and procedures for the validation of contractor cost estimates, and
          incorporate them into the DOT EVMIG and applicable DOT IBR guidance for Contracting
          Officers.

       2. Develop policies and procedures for the retention of COTR and Procurement documented
          conclusions on the validity of provided contractor cost estimates.


3. Inconsistent EVM data tracking and reporting methods across the DOT.

   While the DOT has implemented an enterprise approach to EVM portfolio data, it has not
   implemented a consistent approach to managing and applying EVM data for programs and projects.
   Specifically, tools and technology utilized to document, track, evaluate, and report program and
   project EVM data are not standardized across DOT OAs.

   OST, who has responsibility for coordinating and promulgating EVM requirements, has not had
   adequate resources dedicated to creating and promulgating EVM requirements, specifically in regard
   to the development of an enterprise approach to EVM for projects. OST noted that due to the varying
   sizes of agencies and the variety of investments therein, the implementation of a required set of tools
   for EVM would require a disproportionately high level of effort and resources. Without a
   standardized set of EVM reporting tools, EVMS may be inconsistently implemented and maintained
   across OAs. The utilization of varied tools and technologies across OAs introduces the risk EVM data
   being reported and secured inconsistently, and hinders DOT’s ability to provide a robust training
   curriculum as tools and reporting methods are not consistent across OAs. DOT may not be
   recognizing the benefits of consistent and reliable information through the leveraging of an enterprise
   approach in regard to the implementation of EVM in projects.

   We recommend that OCIO develop procedures to standardize program and project EVM data for all
   OAs.


4. No formalized EVMS training program established across the DOT.

   There is no formalized DOT training program pertaining to EVMS. The OST has not provided
   standardized EVMS training for utilization within DOT OAs.

   OST, who has responsibility for coordinating and promulgating EVM requirements, has not had
   adequate resources dedicated to creating and promulgating EVM requirements, specifically in regard
   to a dedicated EVMS specific training program to be leveraged across DOT OAs. Without
   documented and formalized EVMS training, EVMS may be inconsistently applied across projects
   requiring its use. EVMS requirements are at risk of being reported improperly or neglected, reducing
   the reliability of reported EVMS data. Key personnel without appropriate training are at risk to
   contribute to delays in the execution of reporting requirements and deliverables as defined by DOT
   and OMB policy.

   We recommend that OCIO:



                                                                                                   Page 22
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014

       1. Provide a platform or mechanisms for ensuring appropriate personnel managing programs
          that require EVM reporting must obtain OCIO and OSPE sponsored training prior to
          awarding contract.

       2. Work with appropriate DOT personnel to ensure training qualifications are maintained in a
          designated repository.


5. Inconsistent Integrated Baseline Review (IBR) performance and tracking at Federal
   Aviation Administration (FAA).

   IBR performance has not been consistently executed by investment program management and EVM
   Focal Point staff in accordance to FAA and DOT policy requirements.

   Two investments selected (NEXCOM Segment 1a and ADS-B) did not sufficiently perform required
   IBR performance and reporting actions, as documented below:

       •   NEXCOM Segment 1a performed a contractor IBR in excess of the maximum time
           requirement of 180 days for IBR performance. Contract award was stated as February 9-10,
           2009, while the contractor IBR was not performed until September 25, 2009.
       •   ADS-B conducted a program level IBR in 2008; however, a formalized IBR report was not
           developed or disseminated to stakeholders following execution. Additionally, ADS-B has not
           performed the required program level IBR associated with the final investment decision (FID)
           made on May 30, 2012, for the ADS-B program segment spanning from FY2014 – FY2020.

   Due to improper IBR execution, the validation and assessment of key project attributes (i.e., planning
   activities, performance measures, contract revisions, significant changes to the PMB, schedule
   feasibility, and essential program elements) has not been performed. As a result, FAA and DOT
   Management are unable to validate monthly reported EVM data for accuracy or completeness.

   FAA, who has a responsibility for coordinating and promulgating EVM requirements, has not
   consistently monitored key reporting activities per the AMS policy and ANSI/EIA Standard 748
   guidelines. Specifically, program management has not received adequate training in regards to the
   performance or execution of a contractor IBR. Training was not completed prior to the required
   execution of the IBR, which resulted in delayed IBR performance. Additionally, a mechanism for
   tracking and reporting planned IBRs was only recently been developed for use by the FAA Focal
   Point group. Without completed provisions and monitoring of EVMS standardization and
   implementation, EVMS may be inconsistently applied across projects requiring its use. Without
   proper IBR execution, the validation and assessment of planning activities, identification of useful
   and accurate performance measures, contract revisions, significant changes to the PMB, schedule
   feasibility, and essential program elements are not appropriately performed. EVMS requirements are
   at risk of being reported improperly or neglected, and reducing the reliability of reported EVMS data.
   Projects are at risk of being funded while exhibiting significant program deficiencies.

   We recommend that FAA Management:

       1. Further develop the FAA EVMS Training Module to promote consistency of reporting and
          awareness of EVMS requirements, specifically program and contractor IBR requirements.




                                                                                                  Page 23
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014

       2. Require that the program teams attend corresponding trainings and EVM Focal Point staff
          will be responsible for the development and implementations of training.

       3. Develop a method for holding the program manager responsible for ensuring the timely
          execution of the IBR.

       4. Retain evidence of requests for IBR deferrals past the required 180 day threshold. Require
          this evidence to be presented during the IBR Status Reports conducted with Joint Resources
          Council (JRC).


6. Insufficient contractor EVMS certification and surveillance at FAA

   Contractor EVMS has not been appropriately certified by FAA to meet the guidelines of ANSI/EIA
   Standard 748 as required by DOT and FAA policy. Additionally, FAA Management has not
   appropriately enforced contractor EVMS certification requirements, having permitted the continued
   operation and utilization of a non-certified contractor EVMS.

   Per FAA policy, the EVM Focal Point is responsible for assessing and validating EVM
   implementation and monitoring application to ensure compliance. The Office of Information
   Technology Value Management Office (AIT) is responsible for certifying program EVM systems.
   However, the prime contractor (“Crown Consulting Inc.”) EVMS utilized by the NEXCOM Segment
   1a investment has not been certified.

   As the contractor EVMS is not certified, reported EVM data for NEXCOM Segment 1a cannot be
   consistently validated for accuracy or completeness.

   FAA, who has a responsibility for coordinating and promulgating EVM requirements, has not
   consistently monitored key reporting activities per the AMS policy and ANSI/EIA Standard 748
   guidelines. EVMS certification requirements, although defined, are not adhered to by EVM Focal
   Point staff, as penalties for non-compliance are not defined nor enforced. EVMS certification has
   been delayed as a result of the contactor’s inability to meet required certification criteria. However,
   program reporting and acceptance of EVMS generated data was not halted as penalties for non-
   compliance were not enforced. Lack of an actionable set of repercussions enabled the continued
   operation and reliance upon the non-certified EVMS. Without completed provisions and monitoring
   of EVMS standardization and implementation, EVMS may be inconsistently applied across projects
   requiring its use. EVMS requirements are at risk of being reported improperly or neglected, reducing
   the reliability of reported EVMS data.

   We recommend that FAA Management:

       1. Develop policies and procedures documenting time requirements for certification of
          Contractor EVMS, as well as follow-up requirements to occur in the event contractor EVMS
          is unable to achieve certification.

       2. Certify the Crown EVMS for NEXCOM.

       3. Perform analysis of investments underdevelopment and associated contractor EVMS to
          identify non-certified systems currently being used to report EVM data and perform analysis
          to determine impact of utilization of non-certified EVMS.


                                                                                                   Page 24
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014


       4. Incorporate the timely and consistent tracking of EVMS certification into year-end
          performance metrics for EVM Focal Point staff.




                                                                                             Page 25
Department of the Transportation - EVM and Security Cost Reporting Performance Audit -2014


V. MANAGEMENT RESPONSE TO THE REPORT

The following is the DOT CIO’s response, dated June 19, 2014, to the DOT EVM and Security Cost
Reporting 2014 Performance Audit report.




                                                                                             Page 26
                                                                       Memorandum
       U.S. Department
       of Transportation

       Office of the Secretary
       of Transportation



               ACTION: Response to the OIG Draft Report                          Date:
               On US DOT EVMS Program and Practices for FY 2014
From:                                                                         Reply to
               Richard McKinney                                                Atn of
               Chief Information Officer (CIO
  To

               Louis King
               Assistant Inspector General for Financial and
               Information Technology Audits




   The Department of Transportation's (DOT) Office o f t h e Chief Information Officer (OCIO) continues to
   refine the use of the Department's Earned Value Management System (EVMS) and the value it brings to
   the project management community. While we have made progress in maturing the use of the EVMS,
   we will continue that progress and work to make EVMS a tool that helps drive decision making. Going
   forward, the (OCIO) will work to update EVM policy and implementation guidance that will enhance
   our ability to l everage best practices for training our program managers to ensure they have the core
   knowledge to apply EVM to applicable programs. Additionally, we will strengthen the procedures for
   validating contractor cost estimations and establish a required set of documents to support program
   rebaselining decisions. These actions should posture the Department to EVMS success.



   RECOMMENDATIONS AND RESPONSE

   Recommendation 1: We recommend that OCIO update the DOT EVMIG to establish operational
   requirements and document a defined or recommended set of documents to be retained in the event of a formal
   project baseline change


   Response: Concur. The Director of IT Governance will update the Earned Value Management
   Implementation Guide (EVMIG), setting forth clear operational procedures and documents required to
   support program rebaseline changes over the lifecycle for projects geared towards development,
   modernization, and enhancement activities. Expected completion date for this recommendation is December
   31, 2014.


   Recommendation 2: We recommend that the Office of the Senior Procurement Executive (OSPE) with
   assistance from the OCIO:

          1.    Update policies and procedures for the validation of contractor cost estimates, and incorporate them
               into the DOT EVMIG and applicable DOT IBR guidance for Contracting Officers.
        Response: Concur. OCIO will work with OSPE in providing policy and procedural updates to
        strengthen EVM guidance that will outline requirements for validating contractor cost estimates.
        The updates will ensure program managers are aware of and comply with requirements outlined in
        Federal Acquisition Regulation policy on contractor cost estimation and IBRs. OCIO proposed
        updates will be coordinated with the OSPE. Guidance updates are expected to be complete no
        later than September 30, 2014.


    2. Develop policies and procedures for the retention of COTR and Procurement documented
       conclusions on the validity of provided contractor cost estimates.

        Response: Concur. OCIO will work with OSPE in drafting EVM policy and procedural guidance
        updates and coordinate recommendations with OSPE. Policy and guidance updates will focus on
        procedures for retaining appropriate procurement documents used to assess and validate contractor
        cost estimates. The revised guidance and policy are expected to be complete no later than
        September 30, 2014.


Recommendation 3:        We recommend that OCIO develop procedures to standardize program and project
EVM data for all OAs.

Response: Concur. OCIO will work to update the EVM guidance, which will outline procedures for providing
standard data or artifacts required to measure the effectiveness of EVM and improve oversight I monitoring of
baseline changes for affected OA programs. The updated guidance is expected to be complete no later than
December 31, 2014.


Recommendation 4: We recommend that OCIO:
   1. Provide a platform or mechanisms for ensuring appropriate personnel managing programs that require
      EVM reporting must obtain OCIO and OSPE sponsored training prior to awarding contract.

        Response: Concur. OCIO will work with OSPE to leverage existing training provided through
        Federal Acquisition Institute, Defense Acquisition and other methods such as web based and/or
        computer based modules for project management professionals. The training is expected to provide
        the appropriate information for Project Managers and Program Managers to achieving at least
        minimum proficiency and certification levels for managing EVM affected programs. The planned
        completion is no later than March 31, 2015.

    2. Work with appropriate DOT personnel to ensure training qualifications are maintained in a
       designated repository.

        Response: Concur. OCIO will work with Department stakeholders to identify a designated
        repository for storing and maintaining EVM training qualifications. Once selected, the repository is
        intended to be maintained in a similar manner as that which is required for Program Management
        proficiency training. Expected date for completion is March 31, 2015.


Recommendation 5: We recommend that FAA Management:
   1. Further develop the FAA EVMS Training Module to promote consistency of reporting and
      awareness of EVMS requirements, specifically program and contractor IBR requirements.
        Response: Concur. The current Basic and Advanced EVM training does provide training on the need
        to conduct both contractor and program level IBRs. The training module will be reviewed and revised
        as needed to promote consistency in the reporting and awareness of EVM requirements for both
        program and contract IBRs. The EVM Focal Point will review and update the training material by June
        30, 2014.

   2.   Require that the program teams attend corresponding trainings and EVM Focal Point staff will be
        responsible for the development and implementations of training.

        Response: Concur. EVM training is planned and scheduled prior to each fiscal year. The
        schedule is published in FAA's eLearning Management System (eLMS). The program teams that
        require training will be informed of the requirement, directed to sign up for the training, and their
        attendance will be tracked through eLMS. Those requiring the training and not signed up will be
        contacted along with their Directors to ensure that they take the training in accordance with the
        established schedule. This provision for the tracking of training for the program teams will begin by
        July 1, 2014.

   3. Develop a method for holding the program manager responsible for ensuring the timely execution
      of the IBR.

        Response: Concur. The EVM Focal Point, in coordination with the program managers, has
        developed a list of the required IBRs and is now tracking their conduct. The EVM Focal Point will
        coordinate the development of a method to hold program managers responsible for timely
        execution of IBRs with the Directors of the programs. The FAA will provide the OIG with an update
        on this effort by September 30, 2014.

   4.    Retain evidence of requests for IBR deferrals past the required 180 day threshold. Require this
        evidence to be presented during the IBR Status Reports conducted with Joint Resources Council (JRC).

        Response: Concur. The FAA will require the program managers to provide a rationale for
        deferring IBRs past the required 180 days deadline date through the EVM Focal Point. The EVM
        Focal Point will provide the information collected to the JRC in the quarterly EVM status briefing
        starting June 25, 2014. The EVM Focal Point will revise the IBR date on the IBR tracking sheet and
        monitor the conduct until the IBR is completed.

Recommendation 6: We recommend that FAA Management:

   1. Develop policies and procedures documenting time requirements for certification of Contractor EVMS, as
       well as follow-up requirements to occur in the event contractor EVMS is unable to achieve certification.

        Response: Concur. The FAA will develop policies and procedures documenting time
        requirements for contractor EVMS certification. These new policies and procedures will include
        follow-up requirements if the contractor is unable to achieve certification within the time
        requirements. The FAA plans to accomplish this effort by September 30, 2014.
2. Certify the Crown EVMS for NEXCOM.

     Response: Concur. The EVM Focal Point certified the Crown EVMS during the week of May
     12, 2014. There were no corrective actions but there were recommendations made. The final report
     will be issued by July 15, 2014. The certification letter that validates the EVMS will be developed
     and provided to the FAA Acquisition Executive for signature by July 31,
     2014, at which time the FAA will provide the OIG a copy of the letter.


3.   Perform analysis of investments under development and associated contractor EVMS to identify non-
     certified systems currently being used to report EVM data and perform analysis to determine impact of
     utilization of non-certified EVMS.

     Response: Concur. The investments that are under contract that have the requirement for a
     certified EVMS and have yet to be certified will be identified, a list will be developed ,and
     timeframes established for the certification of these EVMS. The contractors with the non-­ certified
     EVMS will be determined by July 31, 2014, and the list with timeframes will be developed by August
     29, 2014. The timing of the conduct of the EVMS certifications will be coordinated between the
     contracting officer responsible for managing the contract and the EVM Focal Point. The contracting
     officer will ensure, with assistance from the EVM Focal Point, that the certifications are conducted
     within the established timeframe. If EVMS certifications are required, an analysis will be performed
     to determine the impact of the utilization of non-certified EVMs on investment programs. This effort
     should be completed no later than September 30, 2014.

4.   Incorporate the timely and consistent tracking of EVMS certification into year-end performance metrics
     for EVM Focal Point staff.

     Response: Concur. The annual performance plan of the EVM Focal Point developed by
     management captures the requirement to track and conduct EVMS certifications. These
     requirements are also captured in the annual Division Level Work Plan. The annual performance
     plan is developed and signed by both management and the EVM Focal Point in October of each
     year and is reviewed periodically during the year. This process includes a mid-year review, which is
     conducted in April, and the year-end performance review and assessment, which is conducted
     annually in September of each year. The Division Level Work Plan is reviewed on a quarterly basis
     and updated as required. Additionally, the EVM Focal Point meets bi-weekly with management for a
     status review which includes a report on the tracking and results from the conduct of EVMS
     certifications. The agency believes it has complied with this recommendation and requests that it be
     closed.


The Office of the DOT CIO appreciates the opportunity to review and respond to the report. If you have
any questions concerning the response, please contact Walter McDonald at (202) 366-6067, or by email
at walter.mcdonald@dot.gov
Status of Prior-Year Findings                                                                                                   Appendix I

APPENDIX I – STATUS OF PRIOR-YEAR FINDINGS

As part of this year’s Performance Audit, we followed up on the status of the recommendations from the
Office of Inspector General (OIG) report QC-2009-048, dated April 24, 2009, Quality Control Review of
the Department’s Implementation of Earned Value Management and Security Cost Reporting.

  Finding #                      Prior-Year Condition                          Recommendation                          Status
2008‐1:           During our review of the EVMS used at the Department of     A. Ensure that           Implemented/Closed
Controls Over     Transportation (DOT), we identified the following           controls over the
the Reliability   exceptions related to the reliability of EVMS data:         process of collecting    A. EVM tools and technology were
of Earned                                                                     and reporting EVM        restricted to individuals using role-
Value             A.   Controls to prevent unauthorized changes to the        data contain adequate    based permissions established through
Management             spreadsheets (i.e., key cells and spreadsheets used to provisions for           Active Directory accounts to control
Systems                calculate Earned Value Management (EVM)) have          controlling access and   the ability to access and change EVM
(EVMS) Data            not been identified.                                   changes to the EVM       data within the Oracle Primavera
Should Be         B.   Office of the Secretary of Transportation (OST) has    data. In addition,       Portfolio Management (OPPM) tool. In
Strengthened           not promoted nor provided standards for estimating     adequate controls        addition, DOT released DOT Order
                       project requirements for information technology (IT) should be included         1351.22.1, Earned Value Management,
                       projects. This includes considerations for:            over the analysis and    dated July 15, 2010, and updated the
                       •     Estimating resource requirements for project     monitoring processes     DOT EVM Implementation Guide,
                             work elements                                    in order to verify the   dated September 29, 2010 to address
                       •     Assigning management resource/using an           accuracy and             policy and implementation procedures
                             Organizational Breakdown Structure (OBS) and completeness of the          for the analysis and monitoring process
                             Responsibility Assignment Matrices (RAM) for EVM data. These              of verifying the completeness and
                             control accounts and work elements               provisions should be     accuracy of EVM data. The DOT EVM
                       •     Estimating project activity duration and         contained in related     Implementation Guide addresses the
                             sequencing                                       EVM policy and           related policy and implementation
                       •     Establishing EVM credit techniques, EVM          implementation           procedures required in corresponding
                             performance analysis and reporting               procedures and in        SOWs with contractors.
                             requirements including specific requirements     corresponding
                             for EVMS certification and surveillance          Statement of Work        B. Standards for estimating project
                             procedure.                                       (SOW) with               requirements were included in the
                                                                              contractors.             DOT EVM Implementation Guide,
                                                                                                       dated September 29, 2010.
                                                                              B. Consider
                                                                              incorporating the
                                                                              standards for
                                                                              estimating project
                                                                              requirements as
                                                                              described in the
                                                                              observations and
                                                                              incorporate in the to-
                                                                              be released EVM
                                                                              Implementation
                                                                              Guide.




                                                                                                                                     Page 31
Status of Prior-Year Findings                                                                                                       Appendix I

  Finding #                         Prior-Year Condition                          Recommendation                           Status
2008-2:            During our review of the security cost reporting practices     A, B. Consider           Not Implemented/ Open
Controls Over      performed at the DOT, we identified the following              incorporating the        A, B. The prior year finding has not
the                exceptions:                                                    standards for security   been closed as a standard security cost
Reasonableness                                                                    budgeting as described   estimation process does not exist, and
of Security Cost   A.   There are no DOT specific policies or procedures for      in the observations,     has not been developed nor
Estimates and           estimating, tracking and reporting security costs. This   promulgate and           promulgated by OST. While a small
Reporting               includes:                                                 monitor the use of the   number of proprietary tools are used by
Should Be               a.    Provisions for distributing resources based on      standards across OAs.    individual OAs (i.e., National Highway
Strengthened                  assessed risks                                                               Traffic Safety Administration
                        b.    Provisions for using risk analysis, earned value                             (NHTSA) uses iREx to calculate its
                              and return on investment to determine which                                  security costs), a standard policy or
                              security controls should be funded and                                       tool suite has not been implemented
                              implemented                                                                  across DOT. OST acknowledged this
                        c.    Provisions for linking information security                                  and stated that security cost estimation
                              expenditures to the strategy and mission of the                              procedures are in the process of being
                              program                                                                      finalized, and noted that a March 30,
                        d.    Provisions for linking the security costs to                                 2014 deadline is in place to “Develop
                              OMB A‐11 categories                                                          and/or revise the Department’s EA
                        e.    Provisions for developing a performance plan                                 procedures to address the following:
                              that addresses security resources including                                  creation of a standardized methodology
                              budget, staffing and training                                                that provides reliable estimates of
                   B.   Security estimates for the IT Combined Infrastructure                              security funding needed for system
                        are self‐reported by the Operating Administrations                                 investments.” OST Management stated
                        (OAs) and do not follow any consistent, predictable                                that they anticipate meeting this target
                        methodology from which future projections can be                                   delivery date.
                        based by OST. In addition, there is no accountability
                        over the reasonableness of the estimates provided by
                        the OAs. Lastly, the estimates for the common IT
                        services also do not follow a consistent methodology
                        that provides a reasonable estimate of the future
                        security costs based on the services rendered as the
                        subordinate investments are migrated to the common
                        operating environment.




                                                                                                                                          Page 32
Status of Prior-Year Findings                                                                                               Appendix I

  Finding #                     Prior-Year Condition                        Recommendation                         Status
2008-3:          During our review of the implementation and completeness A. Evaluate, complete     Partially Implemented/Open
Controls Over    of EVMS practices performed at the DOT we identified the and promulgate the
the              following exceptions:                                     EVM policy and           A. The DOT EVM Implementation
Implementation                                                             Implementation           Guide, was revised from April 27,
and Use of       A. The DOT EVM policy:                                    Guide.                   2009 to September 29, 2010. This
EVMS In               a.    The EVM Implementation Guidance referenced                              guide has been published and is
Project                     throughout the DOT EVM policy has not yet      B. Evaluate the          utilized by OAs for guidance
Oversight                   been created nor promulgated;                  cost/benefits of         pertaining to the application of EVM
Should Be             b.    Does not accurately recognize Federal Aviation leveraging an            requirements. Implemented.
Strengthened                Administration (FAA) applicability even        enterprise technology
                            through FAA’s requirements for implementing for managing projects       B. A standard framework for managing
                            and using EVM are more stringent and are       and calculating EVM      and apply EVM data across OAs
                            accompanied by EVM implementation              project level data.      portfolios has been implemented
                            guidance; and                                                           through OPPM. However, tools and
                      c.    Does not contain provisions for Training,      C. Consider              technology utilized to document, track,
                            Integration with Portfolio Management, the use incorporating the        evaluate, and report project-level EVM
                            of templates and tools.                        standards for applying   data is not standardized. Partially
                 B. There is no consistent enterprise approach to          EVM in project           Implemented.
                      managing and applying EVM data across OAs.           requirements as
                 C. OST has not promoted nor provided standards for        described in the         C. Rebaselining and documentation
                      applying EVM in IT projects. This includes           observations and         retention requirements have not been
                      considerations for:                                  incorporate in the to-   identified within the DOT EVM
                      a.    Articulating and capturing project scope and   be released EVM          Implementation Guide. Additionally,
                            work assignments through integrated baseline   Implementation           there is no formalized DOT training
                            reviews                                        Guide.                   program pertaining to EVMS.
                      b.    Decomposing work using a standard work                                  Partially Implemented.
                            breakdown structures (WBS) for IT              D. Consider
                            development projects (e.g., following a        incorporating the        D. The DOT EVM Implementation
                            standardized software development lifecycle or standards for            Guide, was revised from April 27,
                            SDLC)                                          implementing and         2009 to September 29, 2010. This
                      c.    Managing concurrent efforts through an         using EVM as             guide has been published and is
                            Integrated Master Schedule (IMS)               described in the         utilized by OAs for for determining the
                      d.    EVM rebaselining guidelines and                observations and         application of EVM requirements.
                            documentation retention requirements           incorporate in the to-   FAA Requirements are documented in
                      e.    Conducting EVM training and lessons learned    be released EVM          the FAA Acquisition Management
                 D. There are inconsistent EVMS practices being            Implementation           System (AMS) Policy. While both the
                      followed across OAs and investments. Specifically,   Guide.                   DOT EVM Implementation Guide and
                      a.    Standard contract language for EVMS is not                              FAA AMS Policy address the
                            being used for Pipeline and Hazardous                                   requirements for the certification and
                            Materials Safety Administration (PHMSA) and                             surveillance of contractor EVMS and
                            NHTSA OAs and the Automated Surface                                     performance of Integrated Baseline
                            Observing Systems/Automated Weather                                     Reviews (IBRs), we noted that
                            Observing System (ASOS/AWOS), Advanced                                  certification and IBR activities had
                            Technologies and Oceanic Procedures (ATOP),                             been inconsistently performed over
                            Safety Monitoring and Analysis Reporting Tool                           contractor EVMS and major
                            (SMART) and Federal Motor Carrier Safety                                investments. Partially Implemented.
                            Administration (FMCSA) Modernization
                            investments.
                      b.    Certain OAs and investments have not
                            performed EVMS certification over their
                            EVMS operated by contractors. Specifically the
                            OST, NHTSA, FMCSA, and PHMSA OAs and
                            the Terminal Automation Modernization and
                            Replacement (TAMR), ASOS/AWOS, SMART
                            and FMCSA Modernization investments.
                      c.    Inconsistent contractor surveillance of EVMS
                            practices for OST, NHTSA, FMCSA, PHMSA
                            OAs and ATOP, Automated Traffic
                            Management/Traffic Flow Management
                            (ATM/TFM), SMART and FMCSA
                            Modernization investments.
                      d.    Standard WBS for development activities are
                            not consistently used by PHMSA or the
                            SMART investment.
                      e.    EVMS reporting frequency performed quarterly
                            for NHTSA.




                                                                                                                                  Page 33
Glossary of Terms                                                                Appendix II

APPENDIX II – GLOSSARY OF TERMS
     Acronym                                           Definition
ACIO                Associate Chief Information Office
ADS-B               Automatic Dependent Surveillance-Broadcast
AIS                 Aviation Information System
AIT                 Office of Information Technology Value Management Office
AMS                 Acquisition Management System
ANSI                American National Standards Institute
AO                  Authorizing Officials
ASOS/AWOS           Automated Surface Observing Systems/Automated Weather Observing System
ATM/TFM             Automated Traffic Management/Traffic Flow Management
ATOP                Advanced Technologies and Oceanic Procedures
C&A                 Certification and Accreditation
CDAN                Crash Data Acquisition Network
CIO                 Chief Information Officer
CLIN                Contract Line Item Number
COTR                Contracting Officer's Technical Representative
CPI                 Cost Performance Index
CPIC                Capital Planning and Investment Control
CSAM                Cyber Security Assessment and Management
CV                  Cost variance
DME                 Development Modernization Enhancement
DOT                 Department of Transportation
DOT COE             Department of Transportation Consolidated Operating Environment
DR                  Disaster Recovery
EA                  Enterprise Architecture
E-Gov               Electronic Government
EIA                 Electronic Industries Alliance
EVM                 Earned Value Management
EVMIG               Earned Value Management Implementation Guide
EVMS                Earned Value Management System
FAA                 Federal Aviation Administration
FEA SPP             Federal Enterprise Architecture Security and Privacy Profile
FHWA                Federal Highway Administration
FID                 Final Investment Decision
FIPS                Federal Information Processing Standards
FISMA               Federal Information Security Management Act of 2002
FMCSA               Federal Motor Carrier Safety Administration
FRA                 Federal Railroad Administration
FTA                 Federal Transit Administration



                                                                                      Page 34
Glossary of Terms                                                                   Appendix II

     Acronym                                            Definition
FTE                 Full-time Equivalent
FY                  Fiscal Year
GAGAS               Generally Accepted Government Auditing Standards
GAO                 Government Accountability Office
IBR                 Integrated Baseline Review
IDA                 Investment Decision Authority
IRB                 Investment Review Board
ISSM                Information Systems Security Manager
ISSO                Information Systems Security Officer
IT                  Information Technology
JRC                 Joint Resources Council
KPMG                KPMG LLP
MAPS                Management Activity Planning System
MARAD               Maritime Administration
MITI                Major IT Investment
MS                  Microsoft
NDIA                National Defense Industrial Association
NEXCOM              Next Generation Air/Ground Communications
NHTSA               National Highway Traffic Safety Administration
NIST                National Institute of Standards and Technology
NPIX                National Pipeline Information Exchange
NTD                 National Transit Database
OA                  Operating Administration
OBS                 Organizational Breakdown Structure
OCIO                Office of the Chief Information Officer
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
OPPM                Oracle Primavera Portfolio Management
OST                 Office of the Secretary of Transportation
PBC                 Provided by Client
PHMSA               Pipeline and Hazardous Materials Safety Administration
PIV                 Personal Identity Verification
PM                  Project Manager
PMA                 President's Management Agenda
PMB                 Performance Measurement Baseline
POA&M               Plan of Action and Milestones
PRM                 Performance Reference Model
RCISS               Regulation and Certification Infrastructure for System Safety
RITA                Research and Innovative Technology Administration
SA&A                Security Assessment and Authorization


                                                                                        Page 35
Glossary of Terms                                                       Appendix II

     Acronym                                         Definition
SIEM                Security Information and Event Management
SIM                 Security Information Management
SLSDC               Saint Lawrence Seaway Development Corporation
SMART               Safety Monitoring and Analysis Reporting Tool
SO                  System Owner
SOW                 Statement of Work
SPI                 Schedule Performance Index
STB                 Surface Transportation Board
SV                  Schedule Variance
TAMR                Terminal Automation Modernization and Replacement
WBS                 Work Breakdown Structure




                                                                            Page 36
